No. _______

In the
Supreme Court of the United States

Demondray D. Mayo,
Petitioner,
v.
Perry Russell, et al.
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Certificate of Service

Rene Valladares
Federal Public Defender,
District of Nevada
*Emma L. Smith
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Emma_Smith@fd.org
Attorneys for Petitioner
*Counsel of Record

I, Emma Smith, an attorney who is authorized to file a Petition for Writ of
Certiorari on behalf of Demondray Mayo, hereby certify that all parties required to
be served have been served on this 4th day of December, 2020, in accordance with
Rule 28.4(a) and 29.3, one copy of the foregoing Petition for Writ of Certiorari,
Appendix, and Motion for Leave to Proceed In Forma Pauperis by delivering said
copy, on consent of opposing counsel, through electronic mail to Jessica E. Perlick,
Senior Deputy Attorney General, 555 E. Washington Ave., Suite 3900, Las Vegas,
Nevada 89101.
Dated December 4, 2020
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Emma L. Smith
Emma L. Smith
Assistant Federal Public Defender

2

